Legal Printers,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

July 15, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

Re:

Linda Bolton, etal.

v.

United States of America

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
the pro se Petitioners, on July 15, 2019,1 caused service to be made pursuant to Rule
29 on the following counsel for the Respondent:
RESPONDENT:
Noel Francisco
Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj.gov
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
rel'

Arthur fir. Chotm, Esq.
Principal

Received
JUL 18 2019

i

